                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AGREED-UPON PROCEDURES REVIEW OF 

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE 

              GRANT AWARDED TO 

    LOWER MISSISSIPPI DELTA SERVICE CORPS 


                        OIG REPORT 10-13




                                                    NATIONAL&:
                                                    COMMUNITY 

                                                               

                                                    SERVICEttV

                            Prepared by:

                   Mayer Hoffman McCann P.C. 

                3 Bethesda Metro Center, Suile 600 

                       Bethesda, MD 20814 





This report was issued to Corporation management on May 24, 2010. Under the laws
and regulations governing audit follow-up, the Corporation Is to make final
management decisions on the report's findings and recommendations no later than
November 24, 2010, and complete its corrective acUons by May 24. 2011 .
Consequently, the reported findings do not necessarily represent the flnal resolution
of the Issues presented.
                           OFFICE OF INSPECTOR GENERAL


                                          May 24, 2010


TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 10-13, Agreed-Upon Procedures Review of Corporation for National
               and Community Service Grant Awarded to Lower Mississippi Delta Service
               Corps


Attached is the final report for the above-noted agreed-upon procedures review. We contracted
with the independent certified public accounting firm of Mayer Hoffman McCann P.C. (MHM) to
perform the procedures. The contract required MHM to conduct its review in accordance with
generally accepted government auditing standards.

MHM is responsible for the attached report, dated May 11, 2010, and the conclusions
expressed therein. We do not express opinions on the Consolidated Schedule of Award and
Claimed Costs, or the Schedule of Award and Claimed Costs for each subgrantee, conclusions
on the effectiveness of internal controls, or the grantee’s compliance with laws, regulations, and
grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by November 24, 2010. Notice of final action is due by May 24, 2011.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:	    Valeria Pennington, Executive Director, LMDSC
        William Anderson, Acting Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
         Management, CNCS
        Bridgette Roy, Administrative Assistant, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Greg Allender, CPA, Shareholder, MHM



                1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
AGREED-UPON PROCEDURES REVIEW OF CORPORATION FOR NATIONAL AND COMMUNITY
   SERVICE GRANT AWARDED TO THE LOWER MISSISSIPPI DELTA SERVICE CORPS

                               Table of Contents



Executive Summary                                                      1


Independent Accountants' Report on Applying Agreed-Upon Procedures     4


   Results - Costs Claimed and Questioned Costs                        4


      Consolidated Schedule of Award and Claimed Costs                 5


      Notes to Consolidated Schedule of Award and Claimed Costs        5


      Exhibit A: Schedule of Award and Claimed Costs                   6


   Results-Compliance and Internal Control                             7



Appendix A -Lower Mississippi Delta Service Corps' Response to Draft
            Report
Appendix B -Corporation for National and Community Service's
            Response to Draft Report
                                 EXECUTIVE SUMMARY 



The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to the Lower Mississippi Delta Service Corps (LMDSC).

Results

As a result of applying these procedures, the auditors did not question any claimed Federal­
share costs. The cost testing results of our agreed-upon procedures are summarized in the
Consolidated Schedule of Award and Claimed Costs.

LMDSC claimed total costs of $1,154,516 from August 29, 2007, through September 30,
2009. As a result of testing a judgmentally selected sample of transactions, the auditors
questioned costs claimed, as shown below.

          Descri~tion   of Questioned Items        Grant Number     Grantee Share
          Transactions Not Properly
          Supported                                07NDHMS001             $ 64,170
          Living Allowance Payments Not
          Made in Equal Increments                 07NDHMS001
                                          Total                           $ 64,170

The grantee share cost questioned represents a significant amount of the grant match
provided by the grantee and could potentially prevent the grantee from meeting its match
requirement. However, grant 07NDHMS001 is open and the grantee has until the end of the
grant term (8/28/10) to fulfill its match obligation.

AmeriCorps members who successfully complete terms of service are eligible for education
awards and accrued interest awards funded by the National Service Trust. These award
amounts are not funded by Corporation grants and thus, are not costs claimed by LMDSC.
As part of our agreed-upon procedures, however, the auditors determined the effect of audit
findings on eligibility for education and accrued interest awards. Using the same criteria
described above, we did not question any education awards.

Details related to these questioned costs and awards appear in the Independent
Accountants' Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements, as shown below under the Compliance and Internal Control section. Issues
identified included:

   • 	 A lack of controls or controls that were not implemented during the preparation of the
       Federal Status Reports;
                                              1

    e   A lack of a record retention policy; 


    e   A lack of adequate expense approval policies and procedures; 


    e   A lack of adequate procedures and controls to ensure living allowances are paid in 

        equal increments;

    •   Late submission of Financial Status Reports, member enrollment and exit forms; and

    •   Missing mid-term and end-of-term member evaluation forms.

Agreed-Upon-Procedures Scope

The auditors performed the agreed-upon procedures during the period October 5 through
December 29, 2009. The agreed-upon procedures covered the allowability, allocability, and
reasonableness of financial transactions claimed by LMDSC between August 29, 2007, and
September 30, 2009. The auditors also performed tests to determine LMDSC's compliance
with terms and provisions for the following grants:

         Program                Award Number             Award Period          Testing Period

AmeriCorps National Direct      07NDHMS001            8/29/07 to 8/28/10   8/29/07 to 9/30/09

The procedures performed, based on the OIG's agreed-upon-procedures program dated
May 2009, have been included in the Independent Accountants' Report on Applying Agreed­
Upon Procedures section of this report.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to National Direct grantees,
such as LMDSC, and other entities to assist in the creation of full-time and part-time national
and community service programs.

LMDSC, based in Cleveland, MS, is a non-profit National Direct grantee that utilizes
AmeriCorps members from its various subgrantees to provide tutoring services to children in
school, provide after-school enrichment, teach family literacy, transition families from
substandard housing conditions, increase the use of computer technology in the classroom,
teach parenting skills, teach pregnancy prevention, provide food and shelter to families, and
conduct health programs for the elderly.

LMDSC awarded funds to two AmeriCorps subgrantees, Mississippi Delta Service Corps
(MDSC) and Arkansas Delta Service Corps (ADSC), during our audit period.          All
subgrantees maintain their own supporting documentation related to claimed costs and
member files. LMDSC received a grant award of $1,662,464 and claimed Federal costs of
$1,154,516 for the period of August 29, 2007, through September 30, 2009.




                                                 2

Exit Conference

The contents of this report were discussed with representatives from LMDSC and the
Corporation at an exit conference held in Cleveland, Mississippi on February 23, 2010. In
addition, a draft of this report was provided to officials of LMDSC and the Corporation for
their comments on March 31, 2010.

Representatives of LMDSC and the Corporation agreed with most of the issues within each
finding. LMDSC and the Corporation's responses are included verbatim as Appendices A
and B, respectively, and are summarized in each finding.




                                            3

                3 Bethesda Metro Center, Suite 600
                Bethesda, MD 20814-6332
                301-951-3636
                301-951-0425
                www.mhm-pc.com

  Inspector General
  Corporation for National and Community Service


                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

  We have performed the procedures described below for costs claimed between August
  29, 2007, and September 30, 2009. The procedures were agreed to by the OIG solely
  to assist it in grant-cost and compliance testing of Corporation-funded Federal
  assistance provided to LMDSC for the award and period listed below, with an award
  period of August 29, 2007, to August 28, 2010. This agreed-upon procedures
  engagement was performed in accordance with standards established by the American
  Institute of Certified Public Accountants and generally accepted government auditing
  standards in the United States of America. The sufficiency of these procedures is solely
  the responsibility of the OIG. Consequently, we make no representation regarding the
  sufficiency of the procedures described below, either for the purpose for which this
  report has been requested or any other purpose.

         Program               Award Number           Award Period           Testing Period

AmeriCorps National Direct    07NDHMS001           8/29/07 to 8/28/10    8/29/07 to 9/30/09

  We were not engaged to, and did not perform an examination, the objective of which
  would be the expression of an opinion on management’s assertions. Accordingly, we do
  not express such an opinion. Had we performed other procedures, other matters might
  have come to our attention that would have been reported to you.

  The procedures that we performed included obtaining an understanding of LMDSC and
  its subgrantee site monitoring process; reconciling Federal share and match costs
  claimed to the accounting system; reviewing member files to verify that the records
  supported member eligibility to serve and allowability of living allowances and education
  awards; testing compliance with selected grant provisions and award terms and
  conditions; and testing claimed grant costs and match costs of LMDSC to ensure: (i)
  proper recording of grant costs; (ii) that the required match was met; and (iii) costs were
  allowable and supported in accordance with applicable regulations, OMB circulars, grant
  provisions, and award terms and conditions. Grant drawdowns were compared for
  consistency to the Federal share reported on LMDSC’s Financial Status Reports.

                     Results – Costs Claimed and Questioned Costs

  The results of testing costs claimed are summarized on page 5. Testing results related
  to LMDSC’s subgrantees appears in Exhibit A on page 6.




                                              4

                Consolidated Schedule of Award and Claimed Costs
              Corporation for National and Community Service Award
                       Lower Mississippi Delta Service Corps

                        August 29,2007, to September 30,2009


                                                            Claimed
       Award Number         Program           Awarded        Costs       Reference

                        AmeriCorps ­
       07NDHMS001        National Direct    $1,662,464     $1,154,516     Exhibit A


             Notes to Consolidated Schedule of Award and Claimed Costs

Basis of Accounting

The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and LMDSC. The information presented in the
schedules has been prepared from reports submitted by LMDSC to the Corporation and
accounting records of LMDSC and its subgrantees. The basis of accounting used in the
preparation of these reports differs from accounting principles generally accepted in the
United States of America as discussed below.

Equipment

No equipment was purchased and claimed under Federal or grantee match costs for the
period within our audit scope.

Inventory

Minor materials and supplies are charged to expenses during the period of purchase.




                                            5

                                                                            EXHIBIT A 


                      Schedule of Award and Claimed Costs
                      Lower Mississippi Delta Service Corps
                      August 29,2007, to September 30,2009


                                                                Claimed
                                Awards                           Costs

              07NDHMS001 - National Direct

              Lower Mississippi Delta Service Corps *       $      74,077
              Mississippi Delta Service Corps*                   551,496
              Arkansas Delta Service Corps                       528,943

                                                    Total   $ 1,154,516


*Selected for Application of Agreed-Upon Procedures




                                          6

                          Results - Compliance and Internal Control

The results of our agreed-upon procedures also revealed instances of non-compliance with
grant provisions, regulations, and/or OMS requirements, as shown below:

Finding 1. A lack of controls or controls that were not implemented during the
preparation of the Financial Status Reports.

LMDSC has been using Excel spreadsheets and invoices as the primary source data for
preparing the Financial Status Reports (FSR). The monthly expense journals do not
reconcile to the FSRs because adjustments were made to the FSRs but the same
adjustments were not made to the journals. In our examination of LMDSC's Operations
Manual, the General Ledger (GL) is supposed to reconcile to the monthly expense journals
and ultimately the FSRs. The manual explicitly states that there must be an audit trail from
the GL to the FSR to the actual invoices. However, there is no clear audit trail; therefore, we
were not able to reconcile the FSRs to the GL. As a result, LMDSC recorded Federal
expenses, in the amount of $544, that were not reported in the FSRs.

The GL is being used as a checkbook for the organization rather than as a supporting
record. Within the GL, Federal and matching expenditures are not segregated and no
adjustments were posted to reflect adjusting entries made on the FSR. In-kind contributions
and expenses are generally not recorded in the GL at all.

The Executive Director stated that she did not know about the requirement to reconcile the
GL to the FSR. She was also not aware of the policies and procedures in the LMDSC
Operations Manual stating the importance of maintaining a clear audit trail. The GL should
be reconciled monthly and serve as the primary record for preparation of the financial
reports. Additionally, there should be separate accounts in the GL for Federal and matching
expenditures. All non-cash transactions (including in-kind transactions) and adjustments
should be entered in the GL as well, with supporting documentation maintained by
management. Testing samples were drawn from the spreadsheets.

Criteria

The 2007 AmeriCorps General Provisions, Section V.B., Financial Management Standards,
item 1., General, states in part, "The Grantee must maintain financial management systems
that include standard accounting practices, sufficient internal controls, a clear audit trail and
written cost allocation procedures as necessary ... "

Recommendations

We recommend that the Corporation:

           1a. Ensure that LMDSC staff reconciles the expense journals to the GL monthly and
               use the GL as the primary source for the preparation of its financial reports;
           1b. Ensure that LMDSC creates separate accounts for Federal and matching
               expenditures; and


                                               7

         1c. 	 Ensure that all in-kind transactions and adjustments are properly recorded in the
               general ledger.

LMDSC's Response

LMDSC stated that the Excel spreadsheet is no longer being used as the primary source for
FFR reporting, and that it now has separate accounts for the Federal and matching
accounts. Additionally, LMDSC is working with its auditor and board of directors to correctly
identify and properly reflect in-kind amounts in the general ledger.

Corporation's Response

The Corporation agrees with the recommendations, and will urge the grantee to either
record match in its general ledger, or develop a formal policy and process for tracking and
recording in-kind amounts in a separate spreadsheet.

Auditor's Comments

The Corporation should follow up to ensure the proposed actions are implemented and
effective.


Finding 2. A lack of a record retention policy.

LMDSC does not have a formal record retention policy in its Operations Manual. LMDSC's
staff stated they were unaware of the requirement for a formal document retention policy.
They have agreed to implement such a policy.

Without a formal written policy to retain supporting documents, it is possible that LMDSC
would not be able to provide sufficient documentation to support grant activity in the event of
an audit or other monitoring review authorized by the Corporation.

Criteria 


2 CFR Part 215.53, Retention and access requirements for records, states in part: 


(b) "Financial records, supporting documents, statistical reports, and all other records
pertinent to an award shall be retained for a period of three years from the date of
submission of the final expenditure report ... "

Recommendations

We recommend that the Corporation:

        2a. Ensure that LMDSC implements a formal record retention policy stating that
        support for Corporation grants will be retained for a minimum of- 3 years after
        submission of the final FSR.



                                               8

LMDSC's Response

LMDSC stated that the grantee's board of directors is currently revising its operating manual
to include a record retention policy.

Corporation's Response

The Corporation agrees with the recommendations and will ensure that LMDSC establishes
a written policy.

Auditor's Comments

The Corporation should follow up to ensure the proposed actions are implemented and
effective.


Finding 3. A lack of adequate expense approval policies and procedures.

The Executive Director incurred expenses for a rental car that were not approved by the
Board President. This transaction, in the amount of $223, occurred on 4/16/2007. We
found that the expense was legitimately related to the grant purpose despite the lack of
Board approval, and therefore is not being questioned.

The Executive Director stated, and we confirmed, that the current LMDSC policy requires
Board approval of expense reimbursements but does not include expenses paid directly to a
vendor on the Executive Director's behalf. The Executive Director stated that the policy will
be revised to require Board approval for all expenses incurred by the Executive Director.
Without proper approval, it is possible that unallowable expenses could be charged to the
grant.

We consider the supporting documentation to be incomplete as expenses incurred by
LMDSC staff are not submitted to LMDSC management in an expense voucher; therefore,
we found that it was sometimes unclear how expenses were related to the grant purpose
based on receipts alone as documentation was incomplete. For those expenses tested
during matching costs testing, we were able to determine in all cases that expenses were
related to grant purposes through inquiry of the staff. However, we were not satisfied with
the supporting documentation provided for two of the matching transactions tested in the
amount of $64,170.

In-Kind contributed rental space and equipment tested during match cost testing was
insufficiently supported. LMDSC is claiming partial rental expense of their headquarters as
an in-kind contribution, however, there is no documentation of how the fair market value of
the related rental expense was determined, nor is there a current lease agreement with the
landlord. LMDSC's equipment and furniture at headquarters was donated by the Board
President as an in-kind contribution; however, there is no formal contract or a detailed listing
of the equipment. Further, there is no supporting documentation indicating how fair market
value was determined. LMDSC is claiming the same amount as in-kind match each year
even though the furniture and equipment is several years old.


                                               9

LMDSC's staff stated that they were unaware that fair market value had to be obtained in
order to calculate the value of the in-kind property donated. Without proper support, it is
possible that unallowable or overvalued expenses could be claimed as match. Therefore,
we questioned $16,800 claimed as matching expense and $19,200 that was claimed as an
in-kind donation. In addition we questioned $28,170 for the in-kind furniture rental donation
for the aforementioned reasons.

Criteria

The 2007 AmeriCorps Provisions General Provisions, V.B. Financial Management
Standards, item 1., General, states in part, "The Grantee must maintain financial
management systems that include standard accounting practices, sufficient internal controls,
a clear audit trail and written cost allocation procedures as necessary."

Corporation regulations at 45 C.F.R. § 2543.21 Standards for financial management
systems, states in part:

           (b) Recipients' financial management systems shall provide for the
           following:

                    (1) Accurate, 	 current and complete disclosure of the financial
                        results of each federally-sponsored project or program in
                        accordance with the reporting requirements set forth in
                        §2543.51 ...

                    (2) Records that identify adequately the source and application
                        of funds for federally-sponsored activities. These records
                        shall contain information pertaining to Federal awards,
                        authorizations, obligations, unobligated balances, assets,
                        outlays, income and interest.

                    (3) Effective 	 control over and accountability for all funds,
                        property and other assets. Recipients shall adequately
                        safeguard all such assets and assure they are used solely for
                        authorized purposes.

Corporation regulations at 45 C.F.R. § 2541.240 Matching or cost sharing, states in part:

           (b) Qualifications and exceptions:

                  (6) Records. Costs and third party in-kind contributions counting towards
                  satisfying a cost sharing or matching requirement must be verifiable from the
                  records of grantees and subgrantee or cost-type contractors. These records
                  must show how the value placed on third party in-kind contributions was
                  derived.
             (d) Valuation of third party donated supplies and loaned equipment or space:

           (2) If a third party donates the use of equipment or space in a building but retains
           title, the contribution will be valued at the fair rental rate of the equipment or space.

                                                  10 

Recommendations

We recommend that the Corporation ensure that LMDSC:

       3a. Updates its policies and procedures to require board approval for all expenses
           incurred by the Executive Director;

       3b. Develop a formal expense voucher that includes fields for grant purpose and the
           proper approval of the expense by the proper authority;

       3c. Execute a formal lease agreement with its landlord; and

       3d. Prepare a written document for in-kind contributions that specifies the fair market
          value of the contribution and how the value was determined.

LMDSC's Response

LMDSC stated that the board is revising its operating manual to include the approval policy
for the Executive Director and LMDSC staff. In addition, the board president has contacted
the landlord regarding a detailed lease agreement for the LMDSC office space. Sample
expense vouchers and in-kind contribution forms will be included in its revised manual.

Corporation's Response

The Corporation agrees with the recommendations, and will ensure the grantee establishes
policies and procedures addressing the travel voucher preparation and approval processes.
It will also verify that the grantee prepared a lease agreement and revised its in-kind
donation document to clearly determine value.

Auditor's Comments

The Corporation should follow up to ensure the proposed actions are implemented and
effective.


Finding 4. A lack of adequate procedures and controls to ensure living allowances
are paid in equal increments.

For Program Years 2007-2008 and 2008-2009, we found that 6 of the 14 member files
reviewed at the subgrantee, Mississippi Delta Service Corps (MDSC), received a lump sum
or make-up living allowance payments during their service.

Five of the members started service after the first pay period and were provided double
payments in the following period. An additional member opened a new checking account
during the program year, but the bank would not accept a direct deposit credit until after the
second pay period as the first pay period was used as a test run. Therefore, a double
payment was made in the following period.


                                             11 

The grantee did not follow regulations regarding living allowance payments and how they
should be paid; therefore, under such circumstances it is possible for members to receive
improper payments.

Criteria

The 2007 AmeriCorps Special Provisions, Section IV.1.1. Living Allowance Distribution,
states:

           A living allowance is not a wage. Programs must not pay a living allowance on
           an hourly basis. Programs should pay the living allowance in regular increments,
           such as weekly or bi-weekly, paying an increased increment only on the basis of
           increased living expenses such as food, housing, or transportation. Payments
           should not fluctuate based on the number of hours serviced in a particular time
           period, and must cease when a member concludes a term of service.

           If a member serves 1700 hours but is permitted to conclude a term of service
           before the originally agreed upon date, the program may not provide a "lump
           sum" payment to the member. Similarly, if a member enrolls after the program's
           start date, the program must provide regular living allowance payments from the
           member's start date and may not increase the member's living allowance
           incremental payment or provide a lump sum to "make up" any missed payments.

Recommendations

We recommend that the Corporation:

           4. 	   Ensure that LMDSC emphasizes, during its subgrantee training, the need to
                  follow living allowance payment requirements and to strengthen procedures
                  to fulfill these requirements.

LMDSC's Response

LMDSC stated that it withheld living allowance payments because the members in question
had not completed their timesheets when required. When the overdue timesheets were
submitted at a later date, the grantee paid the members for both the previous and current
living allowances combined, but no member received more than the total amount of living
allowance specified by the Corporation. Its response included a chart showing that all
members received total amounts of living allowance approved in its grant agreement.

Corporation's Response

The Corporation generally agrees with the recommendations.

Auditor's Comments

We maintain our position that the manner in which the living allowances were paid is clearly
not permitted by Section IV.1.1 of the AmeriCorps Provisions, as cited in the criteria above.
More specifically where it states, " ... if a member enrolls after the program's start date, the

                                               12 

program must provide regular living allowance payments from the member's start date and
may not increase the member's living allowance incremental payment or provide a lump
sum to "make up" any missed payments." However, we are not questioning the living
allowance payments made as the members served during the periods in question. We
believe the appropriate action should have been to defer payment of the delayed living
allowance to the pay period following receipt of the delinquent timesheets, and to adjust all
future payments in subsequent periods in keeping with the intent of the provision, that such
payments be made in equal increments.

In addition, the grantee should update its policies to reflect the most up-to-date version of
the provisions as they are updated on an annual basis.


Finding 5. Late submission of Financial Status Reports, member enrollment and exit
forms.

LMDSC and the subgrantee tested did not consistently submit required reports and/or forms
by stipulated due dates, as shown in the table below.


            Location                             Description of Non-Compliance
LMDSC Headquarters                      •   1 of 4 FSRs submitted late
Mississippi Delta Service Corps         •   6 of 14 enrollment forms submitted late
                                        •   5 of 14 exit forms submitted late

Because LMDSC did not submit the FSR when due, the Corporation cannot review the
reports in a timely manner and may not be fully aware of the financial status of grants. The
Executive Director prepared the FSR in question before the deadline and thought she
submitted it. She only realized later, after being informed by the Corporation, that the FSR
had not been received. Once she realized the FSR had not been submitted, she took
immediate action to submit it.

Per discussion with the MDSC program director, the delay in the submission of the
enrollment form for the members was due to a lack of eligibility documentation provided by
those members. If members were missing a birth certificate, social security card, or other
required document, enrollment was not submitted until the document was received. The
grantee may be precluded from reporting accurate program and expenditure information to
the Corporation in a timely manner. These delays resulted in the Corporation not having
current information on subgrantees, members, and programs.

Criteria

The 2007 AmeriCorps Special Provisions, Section IV.N.1. Reporting Requirements,
Financial Status and Progress Reports, states in part:

           a. Financial Status Reports.          Grantee shall submit semi-annual
           cumulative financial status reports, summarizing expenditures during the
           reporting period using eGrants. Financial Status Report deadlines are as
           follows:
                                               13
               Due Date                         Reporting Period Covered
               April 30                        Start of grant through March 31
               October 31                         April 1 - September 30

The 2007 AmeriCorps Special Provisions, Section IV.N.2 Reporting Requirements,
AmeriCorps Member-Related Forms, states in part:

The Grantee is required to submit the following documents to the National Service Trust at
the Corporation on forms provided by the Corporation. Grantees and Sub-Grantees may use
WBRS to submit these forms electronically. Programs using WBRS must also maintain hard
copies of the forms:

       i. Enrollment Forms. Enrollment forms must be submitted no later than 30 days
       after a member is enrolled.

       ii. Change of Status Forms. Member Change of Status Forms must be submitted
       no later than 30 days after a member's status is changed. By forwarding Member
       Change of Status Forms to the Corporation, State Commissions and Parent
       Organizations signal their approval of the change.

       iii. ExitlEnd-of-Term-of-Service Forms. Member Exit/End-of-Term-of- Service
       Forms must be submitted no later than 30 days after a member exits the program or
       finishes his/her term of service.

Recommendations

We recommend that the Corporation ensure that LMDSC:

       5a. Strengthen procedures to include the confirmation of the submission with the
           Corporation: and

       5b. Provides guidance, during its subgrantee training, on proper completion of
           entrance and exit forms so they are completed and submitted in a timely
           manner.

LMDSC's Response

LMDSC stated that it will print the confirmation page of its future FFR submissions to verify
that the document was properly transmitted. Further, it will provide technical assistance to
the subgrantees before the beginning of the program year to ensure that staff is aware of
proper documentation to request from the potential members. LMDSC will also conduct a
review of the member files after orientation to ensure that all required documentation has
been received. In addition, it will provide guidance during subgrantee training to ensure that
required evaluations are completed and submitted in a timely manner.




                                             14 

Corporation's Response

The Corporation agrees with the recommendations. In lieu of printing the confirmation page,
the Corporation will accept the grantee adding a step to its FFR preparation and submission
procedures to confirm in eGrants that the document was properly submitted. The
Corporation will also ensure that LMDSC provides written guidance to its subgrantees on
submission requirements for enrollment and exit forms.

Auditor's Comments

The Corporation should follow up to ensure the proposed actions are implemented and
effective.


Finding 6. Missing mid-term and end-of-term member evaluation forms.

MDSC did not perform end-of-term and mid-term evaluations for some of its members
during Program Year 2007-2008. Two of fourteen member files reviewed were missing mid­
term evaluations. Additionally, one of the two members was also missing an end-of-year
evaluation.

Per discussion with the Program Director, the end-of-term evaluation was not performed as
one member had health issues that did not allow her to return to complete a final evaluation.
The subgrantee stated that the mid-term evaluations for both members were not completed
due to a clerical oversight by program staff. When an exit evaluation is not performed, there
is no way to determine if the member satisfactorily completed the term of service and is
therefore eligible to serve a second term.

Criteria

The 2007 AmeriCorps Special Provisions, Section IV.D. Training, Supervision and Support,
states in part:

      6. 	 Performance Reviews. The grantee must conduct and keep a record
           of at least a midterm and end-of-term written evaluation of each
           member's performance for Full and Half-Time members and an end-of­
           term written evaluation for less than Half-time members. The evaluation
           should focus on such factors as:

           a. 	 Whether the member has completed the required number of
                hours;

           b. 	 Whether the member has satisfactorily completed assignments;
                and

           c. 	 Whether the member has met other performance criteria that were
                clearly communicated at the beginning of the term of service.



                                             15 

Recommendation

We recommend that the Corporation ensure that LMDSC:

       6. 	   Provides guidance, during its subgrantee training, to ensure that required
              evaluations are completed and submitted in a timely manner.

LMDSC's Response

LMDSC has implemented a system to track when evaluations are distributed to members
and to record when they are received. If they are not received within 10 days, the staff will
follow-up through phone calls and written correspondence.

Corporation's Response

The Corporation agrees with the recommendation, and stated that it will review LMDSC's
monitoring processes to confirm it checks for completion of evaluations during site and desk
reviews.

Auditor's Comments

The Corporation should follow up to ensure the proposed actions are implemented and
effective.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, LMDSC, and the U.S. Congress. However, this report is a matter
of public record and its distribution is not limited.




Bethesda, Maryland
May11,2010




                                             16 

            APPENDIX A 


Lower Mississippi Delta Service Corps' 

    Response to the Draft Report 

                     LOWER MISSISSIPPI DELTA SERVICE CORPS
                     RESPONSE TO THE DRAFTAUDIT REPORT

                     Dated: April 30, 2010



                 Prepared by:
Valeria W. Pennington, LDMSC Executive Director
Larry C. Webster, Jr., MDSC State Director


Finding 1. A lack of controls or controls that were not implemented during
the preparation of the Financial Status Reports.
      LMDSC's response: The Excel spreadsheet is no longer being used as the primary
      source for FFR reporting. LMDSC has separate accounts for the Federal and Matching
      accounts. LMDSC uses Peachtree software to accurately account for all funds. The
      federal and local matching funds are separated there as well as in different bank accounts.
      The staff is working with LMDSC's auditor and board to correctly identify and properly
      reflect in-kind amounts in the GL.

Finding 2. No formal record retention policy.
      LMDSC's response: The issue with this finding is that although LMDSC retains all
      records, no written policy is place. After receiving the information regarding the policy
      during our exit conference, the LMDSC board was contacted and advised of the need for
      a written policy. The board is currently revising the operating manual to include a record
      retention policy.

Finding 3. A lack of adequate expense approval policies and procedures.
      LMDSC's response: The Executive Director receives approval for all expenses
      incurred by the LMDSC board of directors. However, no written policy was in place to
      support this statement. Currently, the board is revising the operating manual to include
      the approval policy for the Executive Director and LMDSC staff. Also to be included in
      the manual are sample expense vouchers and in-kind contribution forms to be used by
      LMDSC. In addition, the board president has contacted the landlord regarding a detailed
      lease agreement for the LMDSC headquarter's office space.

Finding 4. A lack of adequate procedures and controls to ensure living
allowances are paid in equal increments.
      LMDSC's response: The audit review of the $5,059 was found to be payments due
      to members-the manner in which payments were made caused the findings. No member
      received more than the total amount specified by the Corporation for National and
      Community Service. The Executive Director met with the sub grantees to discuss
      payment schedules for members. The 2010-2011 policy manual will include the 2007
      AmeriCorps Special Provisions, Section IV.I.1. Living Allowance Distribution statement
      as our rule.

      The following six members were selected for review during the audit. The chart reflects
      that all members received a total amount approved in LMDSC's grant agreement.


  Member         Start Date       End Date        Total Hrs.      Total Living     Total Living
                                                   Served         Allowance        Allowance
                                                                                    Received
    #1           9/5/2007          914/2008          1830        $11,099.88       $11,099.88
    #2          9/27/2007         8/3112008          1755        $11,099.88       $11,099.88
    #3           914/2007          8/3/2008          1733        $11,099.88       $11,099.88
    #4          8/29/2007         7/3112008          1922        $11,099.88       $11,099.88
    #5          9/15/2008         811412009          1783        $11,399.96       $11,399.96
    #6          1011112007        4/30/2008          474         $11,099.88       $ 5,549.94


Finding 5. Late submission of Financial Status Reports, member enrollment
and exit forms.
      LMDSC's response: Financial Status Report: The FSR in question was
      prepared and submitted in a timely manner, due to technical errors, it was not received by
      the Corporation by the due date. Once this error was discovered, the report was
      successfully submitted. To ensure proper transmission in the future, LMDSC will print
      the confirmation page as verification. Member enrollment and exit forms:
      LMDSC will provide technical assistance to the subgrantees before the beginning of the
      program year to ensure that the staff is aware of what documentation to request from the
      potential members. Also, LMDSC will conduct a review of the member files after
      orientation to ensure that all required documentation has been received. In addition,
      LMDSC will provide guidance during the subgrantee training, to ensure that required
      evaluations are completed and submitted in a timely manner.

Finding 6. Missing mid-term and end-of-term member evaluations.
      LMDSC's response: A tracking system has been implemented to track when
      evaluations are disbursed to members and to record when they are received. If they are
      not received within 10 days, the staff will follow-up through phone calls and written
      correspondence.
                  APPENDIX B 


Corporation for National and Community Service's 

          Response to the Draft Report 

                                        NATIONAL&:
                                        COMMUNITY
                                        SERVICE 

To:               Stuart Axenfeld, Inspector General for Audit   JLj~~'1If!/J~,,~
From:            Margaret Rosenberry, Director of Grants Mana               !~            I
Date:             April 30, 2010

Subject:         Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to the Lower
                 Mississippi Delta Service Corps


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report ofthe Corporation's grants awarded to the Lower Mississippi Delta Service Corps
(LMDSC). The Corporation reviewed the OIG report, met with the OIG Audit Manager and the grantee
and reviewed the LMDSC draft response to the audit. We are addressing all draft fmdings at this time. If
the OIG concurs with our decisions, the Corporation will complete confIrmation of corrective action on
all six compliance recommendations within 90 days of the audit issue date.

Finding 1. A lack of controls or controls that were not implemented during the preparation of the
Financial Status Reports.

The auditor recommends that the Corporation:

la. Ensure that LMDSC staff reconciles the expense journals to the GL monthly and uses the GL as the
    primary source for the preparation of its fmancial reports;
lb. Ensure that LMDSC creates separate accounts for Federal and matching expenditures; and
Ic. Ensure that all in-kind transactions and accounting adjustments are properly reflected in the GL.

      Corporation Response: The Corporation agrees with the fmding and recommendations Ia and Ib
      and will ensure LMDSC establishes controls to prepare its FFR based on data from its accounting
      system and controlled by its general ledger. The Corporation will verify LMDSC enhances its
      accounting practices for more accurate and timely financial reporting and prepares written policies
      and procedures for its fmancial management system. Furthermore, the Corporation will verify the
      LMDSC accounting system includes separate accounts for Federal and matching expenditures. The
      Corporation agrees with the intent of Recommendation Ic, but will recommend LMDSC either record
      match in its GL as income and expenditure or, if that is not practical, develop a formal policy and
      process for tracking and recording in-kind in a separate spreadsheet. The alternative policy and
      process must ensure full accountability and receipt of donations and ensure it is supported with the
      same level of documentation as Federai share costs.

Finding 2. No formal record retention policy.

The auditor recommends that the Corporation ensure that LMDSC implements a formal record retention
policy requiring that supporting documentation for Corporation grants be retained for a minimum of three
years after submission ofthe fmal Federal Financial Report.
    Corporation Response: The Corporation agrees with the fmding and recommendation and will
    ensure LMDSC establishes a written policy.

Finding 3. A lack of adequate expense approval policies and procedures.

The auditors recommend that the Corporation ensure that LMDSC:

3a. Updates its policies and procedures to require board approval for all expenses incurred by the
    Executive Director;
3b. Develops a formal expense voucher that includes fields for grant purpose and the proper approval of
    the expense by the proper authority;
3c. Prepares a lease agreement with its landlord; and
3d. Prepares a written document for in-kind contributions that specifies the fair market value of the
    contribution and how the value was determined.

   Corporation Response: The Corporation agrees and will ensure LMDSC establishes written
   policies and procedures that address the travel voucher preparation and approval processes. We will
   verify that LMDSC prepares a formal lease agreement and revises its in-kind donation document to
   clearly determine value.

Finding 4. A lack of adequate procedures and controls to ensure living allowances are paid in equal
increments.

The auditors recommend that the Corporation:

4a. Resolve the questioned costs of$5,059, and recover disallowed costs; and
4b. Ensure that LMDSC emphasizes, during its subgrantee training, the need to follow living allowance
    payment requirements and to strengthen procedures to fulfill these requirements.

    Corporation Response: The auditors questioned $5,059 in living allowance costs paid to members
    because it appeared they were overpaid in specific time periods. Corporation staff met with the
    LMDSC Executive Director who demonstrated that none ofthe six questioned members were
    overpaid. Program staff had withheld living allowance payments because members had not
    completed timesheets. When the members later submitted the overdue timesheets they were paid for
    the previous time period at the same time they received their living allowance payment for the next
    time period. The grantee concurs that its payment practice gave the appearance of overpayment in
    one time period and did not provide a clear audit trail. The Corporation reviewed the audit
    workpapers and additional member data provided by the grantee and has verified that LMDSC did not
    make lump sum, duplicate or overpayments, the costs are allowed. Furthermore, the Corporation will
    ensure strengthened procedures are implemented and subgrantees are trained on living allowance
    distribution provisions.

Finding 5. Late submission of Financial Status Reports, member enrollment and exit forms.

The auditors recommend that the Corporation ensure that LMDSC:

5a. Strengthen procedures to include conflfIDation with the Corporation of its FFR
    submission; and
5b. Provides guidance, during its subgrantee training, on proper completion of entrance and exit
    forms so they are completed and submitted in a timely manner.



                                                2

    Corporation Response: The Corporation concurs with the audit fmdings and recommendations. In
    its response to the draft audit, LMDSC indicated it will print the screen shot from the Corporation's
    electronic system (eGrants) to confmn the Corporation received the electronic submission of its FFR.
    While this corrective action addresses the finding, printing the confmnation page from an electronic
    system is not in keeping with government advances in paperless initiatives and records management.
    Therefore, the Corporation will also accept, as adequate corrective action, that LMDSC add a step to
    its FFR preparation and submission procedures to review its submission data in eGrants to confmn
    submission.. The Corporation will also ensure that LMDSC provides written guidance to subgrantees
    on submission requirements for enrollment and exit forms and includes review of submission dates in
    its monitoring protocols.

Finding 6. Missing mid-term and end-of-term member evaluation forms.

The auditors recommend that the Corporation ensure that LMDSC provides guidance, during its
subgrantee training, to ensure that required evaluations are completed and submitted in a timely manner.

    Corporation Response: The Corporation concurs. In its response to the draft audit, LMDSC
    indicated it will provide guidance to its subgrantees to ensure they meet AmeriCorps requirements for
    mid-term and end-of-term evaluations. The Corporation will also review LMDSC monitoring
    processes to confmn it checks for completion of evaluations on site visits and in desk reviews.

* * * * * * * * * * * * * * *

Summary: The Corporation is allowing all $5,059 of the Federal questioned costs. The Corporation will 

ensure LMDSC completes corrective action on the recommendations as described in our responses. 





                                                3

